APPENDIX TABLE OF CONTENTS
Order of the Supreme Court of California Denying
Petition for Review (March 27, 2019)................ la
Opinion of the Court of Appeal of the State of
California (January 9, 2019)................................ 2a
First Amended Domestic Violence Restraining
Order [DVRO] (September 29, 2017)................ 29a
Bench Ruling on DVRO
(September 29, 2019)

38a

Bench Ruling on Anti-SLAPP Motion
(June 29, 2017)...............................

42a

Order of the Court of Appeal Denying Petition for
Rehearing (February 4, 2019)......... ......... 45a
Domestic Violence Temporary Restraining Order
(October 26, 2016)................................................ 46a
Relevant Statutory Provisions

52a

DV-120 Response to Request for DVRO
(November 16, 2016)........................

56a

Notice of Motion for Anti-SLAPP
(April 4, 2017).........................

62a

Memorandum in Support of Anti-SLAPP Motion—
Relevant Excerpts (May 11, 2017).................... 64a
Colloquy Between Alexander Baker and Trial
Judge, Relevant Excerpts
(September 15, 2017)............................................ 68a

APPENDIX TABLE OF CONTENTS (Cont.)
Colloquy Between Alexander Baker and Trial
Judge, Relevant Excerpts
(September 28, 2017)........................................ 71a
Testimony of Alexander Baker—Relevant Excerpts
(September 12, 2017)........................................ 73a
Appellant Opening Brief—Relevant Excerpt
(July 16, 2018)..........................................

75a

Transcript of Oral Argument—Relevant Excerpt
(December 19, 2018)........................................ 89a

/

App.la
ORDER OF THE SUPREME COURT OF
CALIFORNIA DENYING PETITION FOR REVIEW
(MARCH 27, 2019)
IN THE SUPREME COURT OF CALIFORNIA
CLARA VESELIZA BAKER,
Plaintiff & Respondent,
v.

ALEXANDER COLLIN BAKER,
Defendant & Appellant.
S254132
Court of Appeal, Second Appellate District,
Division Two—No. B286669
Before: Tani CANTIL-SAKAUYE, Chief Justice.
The petition for review is denied.
Is/ Tani Cantil-Sakauve
Chief Justice

App.2a
OPINION OF THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
(JANUARY 9, 2019)
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA, SECOND APPELLATE DISTRICT
DIVISION TWO
CLARA VESELIZA BAKER,
Plaintiff & Respondent,
v.
ALEXANDER COLLIN BAKER,
Defendant & Appellant.
B286669
(Los Angeles County Super. Ct. No. LD068701)
Before: ASHMANN-GERST, Acting P.J.,
CHAVEZ, J., and HOFFSTADT, J.
Alexander Collin Baker (Alex) appeals from a
domestic violence restraining order (DVRO) issued
against him for the protection of his former wife,
Clara Veseliza Baker (Clara), after a contested
hearing, l We find no error, therefore we affirm the
order.
1 The parties in this matter have the same last name. In addi­
tion, confusion arose in the trial court because Alex is petitioner
in the dissolution proceeding but Clara is petitioner for the

App.3a
BACKGROUND
Both parties provide extensive background facts
regarding the parties’ marriage and the history of
their business relationship. No citations to the record
are provided. We disregard all factual information
unsupported by citation to supporting documentation
in the record. (Cal. Rules of Court, rule 8.204(a)(1)(C)
& (a)(2)(B); City of Lincoln v. Barringer (2002) 102
Cal.App.4th 1211, 1239 [where brief “fail[s] to provide
any citations to the record to support any of the asser­
tions . .. [w]e ... need not consider the matter”].)
PROCEDURAL HISTORY
Clara’s Request for DVRO and Temporary Restraining
Order (TRO)
On October 26, 2016, Clara filed a request for
DVRO. Clara indicated that she was previously married
to Alex, and together they had one child under the
age of 18.2 Clara sought a stay-away order, an order
seeking to prohibit Alex from disseminating private
information, and an order that Alex “[r]emove all
blogs, private contracts, royalty statements, social
security number, and any false, misleading [and]
demeaning information online.” An attachment to the
request for DVRO listed three other pending lawsuits
between Clara and Alex.
Clara attached a seven-page declaration to her
request for DVRO. She indicated that she is a singer,
songwriter, producer, and composer, and that Alex
DVRO. To avoid such confusion, we refer to the parties by their
first names. No disrespect is intended.
2 The parties have an adult child as well.

App.4a
was trying to destroy her livelihood. He publicized
her private contracts, royalty statements, social security
number, and date of birth, as well as the private
information of people with whom Clara works. He
contacted past, current, and future coworkers and
spread “vicious rumors” about her, resulting in her
finding no one interested in working with her. The
harassment was causing her daily anxiety and fear,
and causing her to lose her profession, as well as
friends, business associates, and family.
In addition, Alex harassed her with multiple
threatening emails and texts on a daily basis. He
filed a false police report against her. Alex started a
blog regarding litigation between them, as well as
her private business contracts going back to 1996. He
also posted her co-worker’s private information. He
informed Clara’s boss, and other musicians, that he
had done most of the work the couple produced over
the years. He sent emails and letters to Clara’s
employers and other third parties accusing her of
various crimes including fraud, forgery, and identity
theft. Clara attached several examples. Alex dissemi­
nated her bank statements and private financial infor­
mation.
Clara attested that Alex’s texts and emails are
“stalking.” He was emotionally and verbally abusive.
Clara included a sampling of such texts and emails
in her declaration.
Clara further attested that Alex’s abusive actions
were detrimental to the couple’s children. He damaged
her reputation and caused her to be unable to earn a
living. Clara requested the following order:

App.5a
“Accordingly, I am requesting that [Alex] be
restrained from further disseminating any
of my private information (business contracts,
royalty statements, bank statements, infor­
mation about our divorce, and any emails
whatsoever from or to me); that he be ordered
to immediately remove my private personal
and financial information off the internet that
he posted or directed anyone else to post; that
any information disclosed by either party
during discovery of this case be sealed; that
he be ordered to immediately stop dispar­
aging me to my children, my employers, or
any third parties, that he be prohibited from
videotaping my deposition, and that he be
prohibited from texting and emailing me.”
On October 26, 2016, a temporary restraining order
(TRO) was granted in part, and a hearing set for
November 16, 2016. The TRO prevented Alex from
harassing, threatening, and contacting Clara, and
included a stay-away order. Clara’s request that Alex
be restrained from disseminating information and re­
quired to remove information online was denied. The
trial court noted that the proposed restrictions were
too broad to be determined on an ex parte basis.
Restraining Order Issued After Hearing
The hearing took place on a number of dates over
the course of the following year. On September 29,
2017, the court issued its order granting Clara’s request
for DVRO. The court orally explained its decision.
The court found that certain text messages evidenced
emotional abuse, and read examples aloud in court.
The texts included statements such as “I’m going to

App.6a
use this lawsuit to force you to allow me back,” and
“If you want me to stop suing you, you have to give
me my daughters back.” Alex admitted to being “unbe­
lievably cruel” to Clara, to the point where she felt
“abused and ridiculed and worthless.” The court noted
that Alex’s actions and harassment reached a level
such that Clara’s employer no longer wanted to work
with her. Alex’s pattern of conduct included posting
confidential contracts, posting a blog, posting the last
four digits of her social security number, and threat­
ening to report Clara’s tax preparer to the IRS. The
court found that Alex posted private and sensitive
information about Clara, to the point where she suffered
intimidation, harassment, fear, anxiety, stress, and
isolation. The court found that the dissemination of the
material was in bad faith, “designed specifically to frus­
trate [Clara’s] employment opportunity.” The court
found that a prohibition on dissemination of this infor­
mation was not a restraint of free speech, as the
speech “was not an essential part of any exposition of
ideas and are of such slight social value, . .. that any
benefit that may be derived from them is clearly out­
weighed by the social interest in order and morality.”
With respect to lawsuits, the court noted there
was evidence of seven lawsuits filed by Alex, which
caused Clara serious emotional distress. The court
found that Alex brought the lawsuits with the intent
of harassing Clara. Further, Alex’s conduct in engaging
in “deliberate measures to prolong, delay and frustrate
the resolution of this case,” was calculated to “annoy,
harass, and control” Clara. While the court acknow­
ledged Alex’s right to use the legal process, the court
found that Alex “does not have the right to use it as a
means to solely control” Clara, which the court found

App.7a

“he has done here.” The court found Clara’s testimony
that she and the children were afraid of Alex to be
credible.
The court further found that there had been a
violation of the temporary restraining order, and the
court was permitted to consider this violation in
granting a permanent order. The violation involved
contact with the couple’s minor daughter. While ack­
nowledging some confusion as to whether the TRO
precluded contact with the child, the court noted that
Alex is a recent law school graduate who just sat for
the bar, and yet he relied on Clara to tell him whether
or not there were stay-away orders from the child.
The court articulated the following order:
“Having considered all the relevant and
admissible evidence in this case, the testi­
mony of the parties, argument of counsel
and [Alex], the court finds that [Clara] has
satisfied her burden, by a preponderance of
evidence, demonstrating that abuse has taken
place in this relationship as defined by the
Domestic Violence Prevention Act. And as a
result, will grant the restraining order as
requested for a period of three years.”
“By the terms of this order, [Alex] cannot
harass, attack, strike, threaten, assault, hit,
follow, stalk, molest, destroy personal prop­
erty, disturb the peace, keep under surveil­
lance, impersonate or block movements of
[Clara].”
“[Alex] must not contact, either directly or
indirectly, by any means, including, but not
limited to, phone, mail, e-mail, or by other

App.8a
electronic means, nor is he to take any
action, directly or through others, to obtain
address or location of [Clara].”
The court denied Clara’s request that the parties’
children be named as additional protected parties.
The court specified that Alex was not to videotape
Clara until further order, that he was prohibited
from contacting her business associates in such a
way that could be considered a continuation of the
harassment she had suffered. Alex was ordered to
refrain from publicizing any discovery documents he
received.
The court issued a written restraining order after
hearing on September 29, 2017. On November 27, 2017,
Alex filed his notice of appeal from the September 29,
2017 order on Clara’s request for DVRO.
DISCUSSION
Alex raises 18 separate issues on appeal. In her
responsive brief, Clara consolidated the issues into
four categories, and Alex imitated this structure in his
reply brief. We address Alex’s contentions in seven
categories. As set forth below, we find that the trial
court did not commit constitutional error or abuse its
discretion in issuing the restraining order.
I.

Applicable Law and Standards of Review

The Domestic Violence Prevention Act (DVPA)
authorizes a trial court “‘to restrain any person for
the purpose of preventing a recurrence of domestic
violence and ensuring a period of separation of the
persons involved’” if evidence shows “‘reasonable
proof of a past act or acts of abuse.’” (In re Marriage

App.9a
of Evilsizor & Sweeney (2015) 237 Cal.App.4th 1416,
1424 (Evilsizor)) An order granting a protective
order under the DVPA is reviewed for abuse of dis­
cretion. (In re Marriage of Nadkarni (2009) 173
Cal.App.4th 1483, 1495 (Nadkarni)) This is because
the grant of a protective order “““rests in the sound
discretion of the trial court upon consideration of all
the particular circumstances of each individual
case.’” ... [Citation.]’ [Citation.]” (Ibid)
Family Code section 6320 broadly provides that
“disturbing the peace of the other party” constitutes
abuse for the purposes of the DVPA. (Nadkarni, supra,
173 Cal.App.4th at p. 1497.) In granting Clara’s request
for a DVRO, the trial court found that Alex’s conduct
violated Family Code section 6320. To the extent that
this finding required factual determinations, we review
them for substantial evidence. (J.J. v. M.F. (2014)
223 Cal.App.4th 968, 975.) Under this standard, we
inquire “‘whether, on the entire record, there is any
substantial evidence, contradicted or uncontradicted,’
supporting the court’s finding. [Citation.]” (Sabbah v.
Sabbah (2007) 151 Cal.App.4th 818, 822.) ‘“We must
accept as true all evidence ... tending to establish the
correctness of the trial court’s findings .. ., resolving
every conflict in favor of the judgment.’ [Citation.]”
(Id. at p. 823.)
Alex makes several constitutional arguments,
contending that the restraining order violates his
constitutional rights to free speech and to petition
the government. Notwithstanding the general appli­
cability of the abuse of discretion standard, “when the
triaTcourtVorderinvolves-theinterpretationand-application of a constitutional provision,... questions of law
are raised and those questions of law are subject to de

App.lOa
novo (i.e., independent) review on appeal. [Citation.]”
(Prigmore v. City of Redding (2012) 211 Cal.App.4th
1322, 1333.)
II. The Trial Court Did Not Err in Issuing the
DVRO
A. Alex’s Acts of Harassment in the Form of
Litigation Tactics Are Not Constitutionally
Protected
We first address Alex’s arguments that the trial
court violated his First Amendment rights by finding
that his civil lawsuits and litigation actions warranted
protection under Family Code section 6320.
1. Applicable Law
The First Amendment to the United States Con­
stitution provides that ‘“Congress shall make no
law ... abridging the freedom of speech.... ’” (Balboa
Island Village Inn, Inc. v. Lemen (2007) 40 Cal.4th
1141, 1147 (Balboa Island).) However, the right to
free speech “‘is not absolute.’” {Ibid) “‘Liberty of
speech .. . is . .. not an absolute right, and the State
may punish its abuse.’ [Citation.]” {Ibid) A statute
that prevents civil or criminal wrongs and is not
aimed at protected expression, “does not conflict with
the First Amendment simply because the statute can
be violated by the use of spoken words or other ex­
pressive activity. [Citation.]” {Aguilar v. Avis Rent A
Car System, Inc. (1999) 21 Cal.4th 121, 134 {Aguilar))
In determining whether an injunction violates free
speech-rights. _we_must determine whether it is justified by a compelling state interest. {Id. at p. 165
(cone. opn. of Werdegar, J.).) Certain acts cause “unique

App.lla
evils that government has a compelling interest to
prevent.” (Roberts v. United States Jaycees (1984)
468 U.S. 609, 628.) Such “expressive activities that
produce special harms distinct from their commu­
nicative impact ... are entitled to no constitutional
protection. [Citations.]” {Ibid) The state has expressed,
by statute and in the California Constitution, a
compelling interest in protecting individuals from
harassing conduct. (Fam. Code, § 6320; Code Civ. Proc.,
§ 527.6; Cal. Const, art. I, § l).3
2. Application
a. Non-physical harassment or abuse
may properly be enjoined
First, we acknowledge that Family Code section
6320 “permits a court to enjoin a party from engaging
in various types of behavior, including ‘disturbing the
peace of the other party.’ [Citation.]” {Evilsizor, supra,
237 Cal.App.4th at p. 1424.) The DVPA has a broad
protective purpose, entrusting the courts “‘with author­
ity to issue necessary orders suited to individual cir­
cumstances.’” {Nadkarni, supra, 173 Cal.App.4th at
3 Alex cites DVD Copy Control Assn., Inc. v. Bunner (2003) 31
Cal.4th 864 (Bunner), for the proposition that content-based
restraints on regulation of speech are subject to heightened
scrutiny. (Id. at p. 877.) Bunner involved the misappropriation
of trade secrets, not a family law restraining order covering the
type of harassing conduct discussed here. Further, Bunner
specifies that content-based speech involves ‘“government
censorship of subject matter or governmental favoritism among
different-viewpoints.—(/oLat_p. 879.) Because the restraining order
does not regulate any particular content or viewpoint, it is
content-neutral and not subject to strict scrutiny. (Ibid) Thus,
we decline to apply the strict scrutiny analysis here.

App.l2a
p. 1498.) It is not necessary for a party to prove
physical abuse in order to obtain a restraining order
under this section. (Evilsizor; at p. 1425.) Accessing
and communicating to third parties private informa­
tion may constitute abuse within the meaning of
Family Code section 6320, particularly where such
acts “constitute indirect and threatening conduct.”
(Nadkarni\ at pp. 1496-1497.) This is true regardless
of the means by which the offending party obtains
the private information. (See Evilsizor, at p. 1429.)
Further, the acts of accessing, reading and publicly
disclosing private information may be enjoined when
such acts “disturb[ ] the peace” of a party by “destroying
the mental or emotional calm” of that individual.
{Nadkarni, at pp. 1498-1499.) Harassing litigation, or
litigation tactics, may also constitute both “indirect
and threatening contact” as well as acts that “destroy 0
the mental and emotional calm” of the party seeking
the restraining order. {Ibid)
b. There was no Constitutional error
in enjoining Alex’s litigation tactics
Evidence in the record supports the trial court’s
determination that Alex’s conduct caused Clara to
suffer shock and embarrassment, fear the destruction
of her business relationships, and fear for her safety.
{Nadkarni, supra, 173 Cal.App.4th at p. 1499.) The
trial court noted evidence of seven lawsuits filed by
Alex, which caused Clara serious emotional distress,
all of which were brought with the intent of harassing
Clara. The court also witnessed Alex’s conduct in
engagingAm “deliberate measures to prolong, delay
and frustrate the resolution of this case,” which was
calculated to “annoy, harass, and control” Clara.

App.l3a
Further, both parties have asked that we take
judicial notice of an order dated June 7, 2018, declaring
Alex a vexatious litigant.4 Pursuant to Evidence Code
section 452, we may take judicial notice of records of
any court of this state. Because the parties do not
dispute the propriety of judicial notice of this matter,
we grant this request.
Because the vexatious litigant order merely
validates the trial court’s finding in this matter that
Alex’s litigation and litigation tactics have been
abusive and harassing, we do not place undue emphasis
on it. However, we note that pursuant to the June 7,
2018 order, Alex was declared a vexatious litigant
pursuant to Code of Civil Procedure section 391, sub­
division (b)(3). This statute defines a vexatious litigant
as one who, “while acting in propria persona, repeat­
edly files unmeritorious motions, pleadings, or other
papers, conducts unnecessary discovery, or engages
in other tactics that are frivolous or solely intended
to cause unnecessary delay.” Accordingly, pursuant
to Code of Civil Procedure section 391.7, subdivision
(a), Alex is prohibited from filing any new litigation
in the courts of this state in propria persona without
first obtaining leave of the presiding justice or the
presiding judge of the court where that litigation is
proposed to be filed.
4 On page 6 of his reply brief, Alex states that this court should
not take judicial notice of the vexatious litigant ruling “because
the ruling occurred in July 2018, some nine months after the
DVRO.” However, on the following page of the same brief, Alex
states: “Alex hereby Requests judicial notice of the Vexatious
Order-at-tached-to-RRB-as-Exhibit-1Because Alex proceeds to
describe various findings set forth within the order, we presume
that his intention was to request judicial notice of the docu­
ment, as did Clara.

App.l4a
The state has a compelling interest in prohibiting
vexatious litigants from continuing to file harassing
litigation. (Code Civ. Proc., §§ 391 et seq.) Our vexa­
tious litigant statute is constitutional. (Wolfgram v.
Wells Fargo Bank (1997) 53 Cal.App.4th 43, 59
(Wolfgram)) As the Wolfgram court explained: “the
general right of persons to file lawsuits—even suits
against the government—does not confer the right to
clog the court system and impair everyone else’s right
to seek justice.” {Id. at p. 56.) Preventing such litiga­
tion tactics “does not impermissibly ‘chill’ the right to
petition.” {Id. at p. 59.)
The trial court was authorized to conclude that
Alex’s litigation tactics, which ultimately led to a
vexatious litigant order, were abusive under the DVPA
and did not constitute the type of speech afforded
protection under the First Amendment. {Evilsizor,
supra, 237 Cal.App.4th 1416.)
B. The Trial Court Did Not Improperly Restrict
Alex’s Publication of Documents and Confi­
dential Information to Third Parties, Contact
of Clara’s Business Associates, and Videotap­
ing a Deposition
The trial court ordered that Alex shall not video­
tape Clara, and that any discovery documents obtained
by Alex in litigation shall not be publicized. Alex com­
plains that this blanket prohibition against publishing
documents obtained in discovery extends to litigation,
thus preventing him from filing documents obtained in
discovery in court. Alex insists that the restraining
hfder~must he reversed as a violation of-his righhto
petition. Alex provides no legal citations suggesting
that such a restriction is overbroad.

App.l5a

As set forth above, Alex’s right to petition is not
unlimited. If abused, this right may be curtailed, as
it has been. (Balboa Island, supra, 40 Cal.4th at p.
1147; Wolfgram, supra, 53 Cal.App.4th at p. 59.) The
restraining order’s limitation on Alex’s right to video­
tape Clara, and his right to publicize documents
obtained in discovery, are a result of Alex’s abusive
and harassing actions. The restraining order is direc­
ted at Alex’s harassing conduct. “‘[S]ince words can
in some circumstances violate laws directed not against
speech but against conduct. . . speech can be swept
up incidentally within the reach of a statute directed
at conduct rather than speech. [Citations.]... ’ [Cita­
tion.]” (Aguilar; supra, 21 Cal.4th at p. 135.) So too
here, Alex’s abusive litigation tactics and publication of
discovery have been caught up in this order limiting
his abusive conduct.
After a lengthy contested hearing, the trial court
determined Alex’s conduct to be abuse under the
DVPA. The records supports the trial court’s deter­
mination that Alex was posting Clara’s private infor­
mation and engaging in abusive litigation tactics as a
form of cruelty to Clara, to the point where she felt
“abused and ridiculed and worthless.” Alex engaged in
such conduct in bad faith, “designed specifically to
frustrate [Clara’s] employment opportunity.” Alex’s
rights to petition, and to videotape, are not the objects
of the court’s ruling, rather it was his abuse and har­
assment.
The court’s order prohibiting contact with business
associates is subject to the same analysis. 5 The evidence
5 While the written order does not specifically address the
restriction on contacting Clara’s business associates, Alex asked
for clarification of this in court. The court acknowledged that

App.l6a

before the court showed that Alex publicized the private
information of people with whom Clara works. He
contacted past, current, and future coworkers and
• spread “vicious rumors” about her, with a result that
no one wanted to work with her. The harassment
caused her daily anxiety and fear, and caused her to
lose her profession, as well as friends, business asso­
ciates, and family. He sent emails and letters to
Clara’s employers and other third parties accusing
her of various crimes including fraud, forgery, and
identity theft. With these actions Alex damaged Clara’s
reputation and caused her to be unable to earn a living.
The trial court had the authority to restrain Alex
from contacting Clara’s business associates to the ex­
tent that such contact perpetuated this harassing
behavior. {See Nadkarni, supra, 173 Cal.App.4th at
pp. 1496-1497.) To the extent that this order interferes
with Alex’s right to petition, such interference is
incidental to the restriction on Alex’s conduct, and is
not unconstitutional. {Aguilar; supra, 21 Cal.4th 121,
135.)
Contrary to Alex’s position, the trial court’s
order does not impose a content-based prior restraint
on speech.6 Alex has failed to show a constitutional
violation.
Alex had ongoing litigation against some of these business asso­
ciates, but clarified that “in the event that that contact is deter­
mined to be in any way a continuation of the harassment that
this court has found, . . . you run the risk.”
6 As set forth above, a content-based restriction on speech
censors an entire topicTfrom discussion-or~disapproves~oficertain
ideas expressed within that topic. {Loshonkohl v. Kinder (2003)
109 Cal.App.4th 510, 514.) “As an often cited example of this
principle, the government may ban libel because it is an unpro-

App.l7a
C. Financial Control and Dissemination of Bank
Account Information
We next address Alex’s arguments that the trial
court abused its discretion in making its findings
regarding his exercise of financial control over Clara
and his dissemination of Clara’s bank account infor­
mation to the public.
Alex argues that we should reach a different
conclusion from the trial court—specifically, that
Alex’s handling of the money in June 2015 did not
constitute abuse under the meaning of the DVPA. First,
we note that the trial court’s determination that Alex
used improper financial control was not limited in
time to June 2015. The court concluded that the evi­
dence supported a finding that Alex exhibited such
control, but read “just a few” of the texts that the
court relied upon in making this finding. Those texts
showed accusations by Clara that Alex had taken
money from her, which he did not deny. In addition,
they showed Alex using financial control to get Clara
to agree to reconcile and get the family back together.
In one text, after asking Clara to reunite, Alex states:
“Please say yes. I’ll bring the money.” Alex also
threatened, “I’m going to use this lawsuit to force you
to allow me back.” The text messages the court drew
attention to at the hearing, which were only a portion
of those the court relied upon, constitute substantial
evidence supporting the trial court’s decision. Because
the decision is supported by substantial evidence, we
tected category, but it may not discriminate based on content by
-banning-onlv—libel-that-criticizes the government. [Citation.]”
(Ibid.) Here, the trial court order is not content-based, but bans
all harassing activity in which Alex has engaged—including,
incidentally, his abusive litigation.

App.l8a
do not second guess this factual determination. (Sabbah
v. Sabbah, supra, 151 Cal.App.4th at pp. 822-823.)
Alex further argues that we should find an absence
of substantial evidence that he disseminated Clara’s
bank records to the public. He claims he merely dis­
seminated them to two tax preparers and his girl­
friend. This fact alone provides substantial evidence
that Alex disseminated the records to the public.
This is particularly true because he did so without
Clara’s permission, and for the purpose of harassing
Clara. The evidence shows that Alex sent bank records
to the tax preparer along with a threat that he would
“call the IRS” if the tax preparer did not re-file Clara’s
taxes, and that Clara then received a call from the
tax preparer “terrified” because he didn’t want to “be
in the middle of this.” This evidence supports the
trial court’s determination that Alex improperly dis­
seminated Clara’s bank account information for the
improper purpose of harassing her.
D. Impersonation and Motion for New Evidence
A similar substantial evidence analysis applies
to Alex’s argument that the trial court erred in finding
that Alex used his girlfriend to contact a creditor and
impersonate Clara. However, Alex has failed to provide
sufficient citations to the record for this court to
properly evaluate this claim. In order to challenge a
trial court’s factual findings, parties must “set forth
in their brief all the material evidence on the point
and not merely their own evidence.” (Foreman & Clark
Corp. v. Fallon (1971) 3 Cal.3d 875, 881 (Foreman &
Clark)~)~XJn\ess tMg~is~done—the-elaim—of—error—isdeemed forfeited. (Ibid)

App.l9a
Alex argues that the evidence does not support
the trial court’s conclusion that Alex “used a third
person, Lisa Margulies, to get [Clara’s] information
or contact a creditor and impersonate [Clara] in order
to make changes to the account.” Alex asserts that
Clara’s own testimony proves that Lisa Margulies did
not impersonate Clara. However, he fails to cite the
portions of Clara’s testimony supporting this blanket
statement. Alex purports to quote one portion of Clara’s
testimony where he cross-examined her on this issue.7
In it, Alex asks Clara what she meant when she told
Ms. Margulies she “had been cleared.” Clara responds
that she was “placating her” because Alex “went
ballistic” when she made the accusation of impersona­
tion. Clara continues, “I was nervous and scared what
else you are going to do to me.” This evidence does
not support Alex’s argument that the trial court erred.
In fact, it suggests the trial court was correct.
In short, Alex’s argument is flawed in several
respects. First, he fails to provide citations to the
record showing all the material evidence on this point.
Thus, his contention is forfeited. (Foreman & Clark,
supra, 3 Cal.3d at p. 881.) We begin with the presump­
tion that the record contains evidence to sustain the
trial court’s findings of fact. Alex bore the burden of
proving that the evidence in the record does not sup­
port the trial court’s findings. {Ibid) He failed to do so.
Further, the portions of the record which Alex
has purportedly quoted, without citation, do not support
his position that the trial court was wrong.

7 Alex failed to provide a citation to the record indicating the
pages in the reporter’s transcript where this exchange is located.

App.20a

Simultaneously with the filing of his reply brief
on appeal, Alex filed a “Motion for New Evidence,” in
which he asks this court to take notice of the trans­
cripts of telephone calls between Lisa Margulies and
the Exxon Mobil credit card company. We deny the mo­
tion. “The general rule is that ‘an appeal reviews the
correctness of a judgment as of the time of its rendi­
tion, upon a record of matters which were before the
trial court for its consideration.’ [Citation.]” {In re
EliseK (1982) 33 Cal.3d 138, 149 {Elise K)) This rule
reflects the ‘“essential distinction between the trial
and the appellate court. .. that it is the province of
the trial court to decide questions of fact and of the
appellate court to decide questions of law. .. . ’ [Cita­
tion.]” {Ibid)
Civil Code section 909 provides a narrow exception
to this rule, which is “to be used sparingly.” {Elise K,
supra, 33 Cal.3d At p. 149.) Decisions declining to
apply the exception found in Civil Code section 909
involve evidence which “(l) existed at the time of
trial, (2) was contested on appeal or was cumulative
of evidence that was contradicted at trial, and (3) was
not conclusive on the question for which its admission
was sought.” {Ibid) All of these problems are present
here. First, the transcript involves a phone call
allegedly made in January 2016, nine months before
Clara filed the petition for DVRO. Thus, it existed at
the time of trial, but Alex did not present it to the
trial court. Second, although Alex has not provided a
thorough discussion of the evidence at trial, nor cita­
tions thereto, it is likely cumulative of evidence that
was-cont-radieted-at-tr-ial—Finally.-it_is_not conclusive
of the question on which it is sought: namely, to
obtain a reversal of the trial court’s factual finding

App.21a
that Alex caused a female to “get [Clara’s] information
or contact a creditor and impersonate [Clara].” Again,
Alex does not provide a thorough discussion of the
evidence at trial, and we must presume there was
contradictory evidence in the record supporting the
trial court’s finding. Finally, Alex does not address
the trial court’s alternate finding that Alex used a
female to get Clara’s information.
Alex cites Elise K. for the proposition that, “if
compelling new circumstances arise which undermine
the basis for [an order affecting constitutional rights]
during a parent’s appeal from such an order, an appel­
late court may and should take cognizance of and
consider those changed circumstances.” (Elise K.,
supra, 33 Cal.3d at p. 150, fn. omitted.) Alex has not
provided evidence of changed circumstances. He is
merely providing additional, cumulative evidence that
he failed to provide to the trial court.
Because the evidence Alex seeks to have considered
on appeal suffers from these flaws, we decline to
consider it.
E. Violation of the TRO, Improper Purpose for
DVRO, Propriety of Stay-Away Order
The trial court found that Alex violated the TRO.
Specifically, the court held:
“The court can take and consider the fact
that there has been a violation of the tempo­
rary restraining order in consideration in
granting a permanent order in this case.
------And-the-eourt-does-find-that-the-texts.that____
were sent after the TRO, the communications
that were made by [Alex] to [Clara], con-

App.22a
stitute a violation of the temporary res­
training order.”
The court acknowledged that there was “some
confusion” among the parties as to whether the TRO
specified a stay-away order from the children. Alex
argues that Clara “waived” the TRO by asking Alex
to pick up their daughter and texting Alex in ways
that required responses, among other things. Alex
contends that Clara and her attorney framed him to
violate the TRO.
First, Alex provides no legal support for his
theory that he was “framed” into violating the TRO.
We need not address arguments that are not supported
by citation to legal authority. (City of Monterey v.
Carrnshimba (2013) 215 Cal.App.4th 1068, 1099 (City
ofMonterey) [absence of legal argument and citation
to authorities in support of contention results in its
forfeiture].) Furthermore, even if we were to consider
Alex’s substantial evidence argument, it fails. The
text messages in the record show Clara making com­
ments such as “follow the restraining orders.” After a
string of nine separate texts from Alex, Clara writes
simply, “Stop.” After yet another text from Alex, she
writes, “Or I will block you.” After another six texts
from Alex, Clara writes, “If you do this you will harm
Ryan. I suggest you don’t do so.” Then, “I am not
keeping you from your kids. Only from harassing
them and me.” Further, as the court noted, on
another date Clara wrote “Stop texting me unless it’s
about Ryan.” Then later, “Stop harassing me.”
----- Resardless-of whether there is contrary evidence in
the record, these texts support the trial court’s
factual finding that Alex violated the TRO. (Sabbah
v. Sabbah, supra, 151 Cal.App.4th at p. 822.)

App.23a
The trial court’s determination that Clara did
not bring the request for DVRO for an improper purpose
is also subject to review for substantial evidence.
Alex claims that it was brought in order to avoid
deposition. The trial court’s ultimate finding that
Alex was harassing Clara, and its determination that
a restraining order was appropriate, undermines Alex’s
argument that it was brought for an improper purpose.
(See, e.g., Soukup v. Law Offices of Herbert Hafif
(2006) 39 Cal.4th 260 [to prevail on a malicious pros­
ecution claim, plaintiff must show that the action was,
among other things, pursued to a legal termination
favorable to the plaintiff].)
The propriety of the stay-away order is reviewed
for abuse of discretion. Alex argues that there were
no allegations of physical violence, a stay-away order
is wholly inappropriate. Alex refers to “conclusory
buzzwords” that Clara used in her testimony, such as
“stalk,” “threat,” and “can’t get away.” However, Alex
argues that Clara admitted there was never any
physical violence.
A physical threat is not a prerequisite to a stayaway order. (People v. Petty (2013) 213 Cal.App.4th
1410, 1422.) It is within the trial court’s discretion to
issue such an order for “an emotional violation.” (Id.
at p. 1423.) Given Clara’s testimony concerning Alex’s
harassing and threatening behavior, the trial court
acted within its discretion in granting such an order
in this case.
F. Excluded Evidence
Alex argues that the trial court improperly
excluded evidence of Clara’s state of mind. He sought
to introduce evidence of Clara’s belief that certain

App.24a

actions she undertook would disturb Alex’s state of
mind. Alex sought to introduce this evidence “to show
that Clara does not actually believe that such actions
constitute Domestic Violence, and that this action
was brought for the primary purpose of defeating Alex’s
civil litigation.”
Alex cites the following exchange:
“Q. (By [Alex]): You were accusing me of libel,
slander and defamation, right?
“A. [By Clara] Yes.
“Q. Did you think those accusations would disturb
my peace of mind?
“[Clara’s attorney]: Objection; relevance. “The
Court: Sustained.
“[Alex]: If I may, your Honor, [Clara’s] state of
mind is not only relevant but it, in some
sense is the only thing that is relevant to
this entire case. I mean, she is trying to say
that my words to other people disturb her
state of mind constituting domestic violence,
so that is her contention.”
After a brief colloquy, the court stated:
“Okay. As to the question of whether or not
[Clara] believed that her text to you saying
that you were being accused of libel, defa­
mation and slander, whether or not she
believed that disturbed your peace, I am
finding is not relevant to these proceedings.
Solamgoingtosustain-thatobjection.”____
While Alex argues generally that the court should
have admitted “state of mind” evidence, the objection

App.25a
quoted above is the only specific sustained objection
that Alex referenced.
We apply the abuse of discretion standard to
review any ruling by a trial court on the admissibility
of evidence. (People v. Waidla (2000) 22 Cal.4th 690,
717.) This includes a decision on admissibility that
turns on the relevance of the evidence in question.
{Ibid) Under this standard, we evaluate the trial court
decision only to determine whether it “‘falls [s] “outside
the bounds of reason.”’ [Citations.]” {Id. at p. 714.)
First we again note that Alex has cited no legal
authority for his proposition that speculation by the
petitioner in a DVRO proceeding as to the state of
mind of the alleged perpetrator is relevant. Due to
his failure to support his argument with citation to
legal authority, it is forfeited. {City of Monterey,
supra, 215 Cal.App.4th at p. 1099.)
Further, the trial court did not abuse its discretion
in sustaining the objection on the ground of relevance.
The objection was made to the following question,
“Did you think those accusations would disturb my
peace of mind?” Alex’s state of mind was not at issue
in the proceeding; rather his actions were at issue.
Thus, the trial court did not abuse its discretion in
determining the question to be irrelevant.
As to Alex’s further vague references to “state of
mind” evidence, without reference to specific evidence
that was excluded, we have no basis to find error.
G. Remaining Arguments
We briefly address Alex’s remaining arguments:

App.26a
First, Alex argues that the standard set in
Nadkarni and Evilsizor is too broad, and that we should
set a higher standard for the imposition of a DVRO
based on non-physical conduct. Alex argues that the
standard of extreme and outrageous conduct, used as
the standard for a claim of intentional infliction of
emotional distress, is more appropriate. (Spackman
v. Good (1966) 245 Cal.App.2d 518, 528-529.) We decline
to impose a higher standard of conduct for issuance
of a DVRO when nonphysical harassment is at issue.
The Legislature has specified that a court may issue
an order restraining an individual from, among other
things, “disturbing the peace” of another individual.
(Fam. Code, § 6320, subd. (a).) The Nadkarni court
provided a thorough analysis of this language:
“The ordinary meaning of ‘disturb’ is ‘[t]o
agitate and destroy (quiet, peace, rest); to
break up the quiet, tranquility, or rest (of a
person, a country, etc.); to stir up, trouble,
disquiet.’ [Citation.] ‘Peace,’ as a condition
of the individual, is ordinarily defined as
‘freedom from anxiety, disturbance (emo­
tional, mental, or spiritual), or inner con­
flict; calm, tranquility.’ [Citation.] Thus, the
plain meaning of the phrase ‘disturbing the
peace of the other party’ in [Family Code]
section 6320 may be properly understood as
conduct that destroys the mental or emo­
tional calm of the other party.”
{Nadkarni, supra, 173 Cal.App.4th at p. 1497.)
------This- definition- has been_applied by the courts in
subsequent cases, such as Evilsizor, over the almost
10 years since the Nadkarni court analyzed it. We
presume the Legislature is aware of the judicial deci-

App.27a
sions interpreting statutory law and intends to adopt
those decisions. (People v. Tingcungco (2015) 237
Cal.App.4th 249, 257 [“The Legislature is deemed to
be aware of judicial decisions already in existence
and to have enacted or amended a statute in light of
those decisions”].) The Legislature’s failure to amend
Family Code section 6320 in light of the Nadkarni
decision, and later decisions applying the same stan­
dard, signal that the Legislature does not intend to
invalidate those decisions. (Tingcungco, at p. 257.) It
is not our role to do so.
Finally, Alex argues that the trial court did not
adequately state the basis for this DVKO on the
record. However, Alex fails to make any specific argu­
ments as to what was lacking from the trial court’s oral
statement of its decision. We find that the court
adequately stated the basis for its order. The court’s
oral explanation of its decision spans at least eight
pages of the reporter’s transcript. The court explains
its findings of emotional abuse, harassment and threats
that interfered with Clara’s ability to earn a living
and do business, publication of private and sensitive
information, and abuse of the litigation process,
among other things. The court’s explanation appears
to be thorough.

App.28a
DISPOSITION
The order is affirmed. Respondent, Clara Baker,
is awarded her costs on appeal.
Chavez
J.
We concur:
Ashmann-Gerst
Acting P. J.
Hoffstadt
J.

Additional material
from this filing is
available in the
Clerk's Office.

